No. 19–_____

In the

Supreme Court of the United States
————¨————

RANGER AMERICAN OF THE V.I., INC.
AND EMICA KING,
Petitioners,
v.
FREDERIC J. BALBONI, JR.,
Respondent.
————¨————
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE VIRGIN ISLANDS
————¨————

PETITION FOR WRIT OF CERTIORARI
————¨————

Andrew C. Simpson
Counsel of Record
Paul R. Neil
Andrew C. Simpson, P.C.
Barnes & Neil, L.L.P.
2191 Church St., Ste. 5
rd
1131 King St., 3 Floor
Christiansted, St. Croix
Christiansted, St. Croix
U.S. Virgin Islands 00820
U.S. Virgin Islands 00820
340.719.3900
340.773.2785
asimpson@coralbrief.com
www.coralbrief.com

i
QUESTION PRESENTED
Congress has the power to “make all needful Rules
and Regulations” for United States territories. U.S.
Const. Art. IV, § 3. Throughout history, it has used this
authority to extend portions of the Bill of Rights to the
country’s territories through federal legislation.
Territorial courts have at times tried to interpret a
Congressionally-applied bill of rights differently than
this Court interprets the source—the Bill of Rights.
When Congress extended the Double Jeopardy Clause
to the Philippines but its highest court departed from
this Court’s double jeopardy jurisprudence, this Court
reversed. Kepner v. United States, 195 U.S. 100 (1904).
Likewise, the Guam Supreme Court was reversed when
it interpreted the First Amendment (applied to Guam
by a federal statute) differently than this Court’s First
Amendment precedent. Guam v. Guerrero, 290 F.3d
1210 (9th Cir. 2002). Similar decisions in other United
States possessions yielded similar results. See United
States v. Husband R., 453 F.2d 1054 (5th Cir. 1971),
cert. denied, 406 U.S. 935 (1972) (Panama Canal Zone)
and South Porto Rico Sugar Co. v. Buscaglia, 154 F.2d
96 (1st Cir. 1946) (Puerto Rico).
This case is here because the Virgin Islands
Supreme Court circumvented this Court’s precedent in
Kepner, rejected Guerrero, and ignored Husband R.
and Buscaglia. The question presented is:
Is the Virgin Islands Supreme Court bound by
this Court’s Equal Protection decisions where
Congress explicitly applied the Equal Protection
Clause to the Territory via a federal statute?

ii
CORPORATE DISCLOSURE
Ranger American of the V.I., Inc. is wholly-owned
by Ranger American Group Trust. No publicly-owned
company owns 10% or more of Ranger American Group
Trust.

DIRECTLY RELATED PROCEEDINGS
• Balboni v. Ranger American of the Virgin
Islands, Inc., et al., Case No. ST–14–CV–366,
Superior Court of the Virgin Islands. Order
entered on Jan. 24, 2018
• Balboni v. Ranger American of the V.I., Inc.,
et al., Sup. Ct. Civ. No. 2018–0022, Supreme
Court of the Virgin Islands. Judgment
entered on June 2, 2019.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE . . . . . . . . . . . . . . . . . . . . . . ii
DIRECTLY RELATED PROCEEDINGS . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS AT ISSUE . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 1
A. Introduction and Background . . . . . . . . . . . . . . . 1
1.

The status of the Bill of Rights in the
Territory of the Virgin Islands . . . . . . . . . 1

2.

The Virgin Islands Legislature
struggles to make affordable automobile
liability insurance available in the
Territory. It finally succeeds by imposing
a cap upon non-economic damage
awards in automobile accident cases. . . . . 3

B. Proceedings in the Superior Court of the
Virgin Islands—the cap is upheld . . . . . . . . . 5

iv
C. The Virgin Islands Supreme Court departs
from this Court’s equal protection
jurisprudence to strike down the noneconomic damages cap. . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . . . . . . . . 11
A. The decision below conflicts with three
relevant decisions of this Court on an
important question of federal law. . . . . . . . . 11
B. The decision below conflicts with three
U.S. courts of appeal on an important
question of federal law . . . . . . . . . . . . . . . . . 16
C. The Question Presented raises an
important question of federal law and has
great importance to the Territory . . . . . . . . . 18
D. This case provides an ideal vehicle for the
Court to clarify the standard of review
that applies to decisions of territorial
courts that interpret federal law . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

v
APPENDIX
Opinion
Supreme Court of the Virgin Islands
entered June 3, 2019 . . . . . . . . . . . . . . . . . . . . 1a
Dissenting Opinion . . . . . . . . . . . . . . . . . . . . 87a
Judgment
Supreme Court of the Virgin Islands
entered June 3, 2019 . . . . . . . . . . . . . . . . . . 139a
Opinion
Superior Court of the Virgin Islands
entered January 24, 2018 . . . . . . . . . . . . . . 142a
Statutory Provisions at Issue . . . . . . . . . . . . . 164a
48 U.S.C. § 1561 . . . . . . . . . . . . . . . . . . . . . . 164a
48 U.S.C. § 1613 . . . . . . . . . . . . . . . . . . . . . . 164a

vi
TABLE OF AUTHORITIES
PAGE(S)
CASES
Boumediene v. Bush,
553 U.S. 723 (2008) . . . . . . . . . . . . . . . . . . . . 14–15
Davis v. Omitowoju,
883 F.2d 1155 (3d Cir. 1989). . . . . . . . . . . . . . . . 14
Estate of McCall v. United States,
642 F.3d 944 (11th Cir. 2011) . . . . . . . . . . . . . . . 14
Guam v. Guerrero,
290 F.3d 1210 (9th Cir. 2002) . . . . . . . . . . i, 17–18
Hodge v. Bluebeard’s Castle, Inc.,
62 V.I. 671, 2015 WL 3634032 (2013). . . . . . . . . . 2
Hoffman v. United States,
767 F.2d 1431 (9th Cir. 1985) . . . . . . . . . . . . . . . 14
Kepner v. United States,
195 U.S. 100 (1904) . . . . . . . . . . . . . . . . . . . passim
Kingdomware Technologies., Inc.
v. United States, __ U.S. __,
136 S. Ct. 1969 (2016). . . . . . . . . . . . . . . . . . . . . . 7
Lucas v. United States,
807 F.2d 414 (5th Cir. 1986) . . . . . . . . . . . . . . . . 14
Maximin v. Rivera,
25 V.I. 20, 1990 WL 533213 (Terr. Ct. 1990) . . . . 4
Memorial Hosp. v. Maricopa County,
415 U.S. 250 (1974) . . . . . . . . . . . . . . . . . . . . . . . 21

vii
Minnesota v. Clover Leaf Creamery Co.,
449 U.S. 456 (1981) . . . . . . . . . . . . . . . . . . . . . . . 21
Oregon v. Hass,
420 U.S. 714 (1975) . . . . . . . . . . . . . . . . . . . . . . . 22
Patton v. TIC United Corp.,
77 F.3d 1235 (10th Cir.),
cert. denied, 518 U.S. 1005 (1996) . . . . . . . . . . . 14
People v. Guerrero, 2000 Guam 26,
2000 WL 1299635 (Sept. 8, 2000),
rev’d, Guam v. Guerrero,
290 F.3d 1210 (9th Cir. 2002) . . . . . . . . . . . . . . . 17
People v. Moses, 2016 Guam 17,
2016 WL 1735783 (2016) . . . . . . . . . . . . . . . . . . 20
Serra v. Mortiga,
204 U.S. 470 (1907) . . . . . . . . . . . . . . . . . 13–14, 16
Smith v. Botsford Gen. Hosp.,
419 F.3d 513 (6th Cir. 2005),
cert. denied, 547 U.S. 1111 (2006) . . . . . . . . . . . 14
South Porto Rico Sugar Co. v. Buscaglia,
154 F.2d 96 (1st Cir. 1946) . . . . . . . . . . . . . . . i, 17
United States v. Husband R.,
453 F.2d 1054 (5th Cir. 1971),
cert. denied, 406 U.S. 935 (1972) . . . . . . . . . . i, 17
Vooys v. Bentley,
901 F.3d 172 (3d Cir. 2018),
cert. denied, __ U.S. __, 139 S. Ct. 1600 . . . . . . . 21

viii
Weems v. United States,
217 U.S. 349 (1910) . . . . . . . . . . . . . . 13–14, 16–17

CONSTITUTIONAL PROVISIONS
U.S. Const. Art. IV, § 3 . . . . . . . . . . . . . . . . . . . . . . . . i
Equal Protection Clause,
U.S. Const. Amend. XIV, § 1 . . . . . . . i, 6–9, 14, 16
FEDERAL STATUTES
28 U.S.C. § 1260 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2403(b). . . . . . . . . . . . . . . . . . . . . . . . . . . 6
48 U.S.C. § 1424-2. . . . . . . . . . . . . . . . . . . . . . . . . . . 17
48 U.S.C. § 1561 . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7–8
48 U.S.C. § 1572 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
48 U.S.C. § 1591 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
48 U.S.C. § 1611 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
48 U.S.C. § 1613 . . . . . . . . . . . . . . . . . . . . . . . . . 21, 23
48 U.S.C. §§ 1571–1573 . . . . . . . . . . . . . . . . . . . . . . . 2
Pub. L. No. 92-271, 86 Stat. 118 . . . . . . . . . . . . . . . 19
Pub. L. No. 94–584, 90 Stat. 2899 . . . . . . . . . . . . 2, 11
Pub. L. No. 98–45, 98 Stat. 1732)
(codified as amended 48 U.S.C. § 1424-2) . . . . . 17
Pub. L. No. 111–194, 124 Stat. 1309 . . . . . . . . . . . . 11
Revised Organic Act of the Virgin Islands,
48 U.S.C. §§ 1541–1645 . . . . . . . . . . . . . . . passim

ix

TERRITORIAL STATUTES
V.I. Code Ann. tit. 20, § 555 . . . . . . . . . . . . . . . 4–5, 19
V.I. Code Ann. tit. 5, § 31(5)(A) . . . . . . . . . . . . . . . . 20
1959 V.I. Sess. Laws 87
(Act No. 478, June 24, 1959) . . . . . . . . . . . . . . . . 3
1960 V.I. Sess. Laws 11
(Act No. 519, Jan. 22, 1960) . . . . . . . . . . . . . . . . . 3
1975 V.I. Sess. Laws 112
(Act No. 3724, July 31, 1975) . . . . . . . . . . . . . . . . 4
1985 V.I. Sess. Laws 155 (Act No. 5107,
§ 4, Nov. 2, 1985). . . . . . . . . . . . . . . . . . . . . . . . . . 4
1999 V.I. Sess. Laws 49 (Act No. 6287,
§ 24 Aug. 17, 1999) codified at
V.I. Code Ann. tit. 20, §§ 701–713 . . . . . . . . . . . . 4
1999 V.I. Sess. Laws 58 (Act No. 6287,
§ 26 Aug. 17, 1999) codified as amended
V.I. Code Ann. tit. 20, § 555 . . . . . . . . . . . . . . . . 4
RULES AND OTHER AUTHORITIES
V.I. Rule Civ. Proc. 5.1 . . . . . . . . . . . . . . . . . . . . . . . . 6
Amending State Constitutions,
Ballotpedia, https://ballotpedia.org/
Amending_state_constitutions . . . . . . . . . . . . . . 18

1
OPINIONS BELOW
The decision of the Supreme Court of the Virgin
Islands appears in the Appendix (App.) at 1a and is
also available at 2019 WL 2352281. The decision of the
Superior Court of the Virgin Islands appears at App.
142a and is also available at 2018 WL 565531.
JURISDICTION
The Supreme Court of the Virgin Islands entered
its decision on June 3, 2019. This Court has
jurisdiction under 28 U.S.C. § 1260 to review a decision
of the Supreme Court of the Virgin Islands by writ of
certiorari.
STATUTORY PROVISIONS AT ISSUE
The statutory provisions at issue are set forth at
App. 164a.
STATEMENT OF THE CASE
A. INTRODUCTION AND BACKGROUND.
1.

The status of the Bill of Rights in the
Territory of the Virgin Islands.

Territorial possessions of the United States occupy
a unique niche under the U.S. Constitution. Because
the territories are not “states,” they are not a part of
the United States in a constitutional sense. A territory
cannot send electors to the electoral college in
presidential elections and has no voting representation
in either the House of Representatives or the Senate.
And, while the U.S. Congress has generally created
mechanisms by which territories can adopt a
constitution and representative form of government,

2
until a territory does so and Congress approves it, a
territory’s form of government and the rights its people
enjoy are dictated by federal law.1
In 1954, Congress created a system of government
for the Virgin Islands when it enacted the Revised
Organic Act of the Virgin Islands (48 U.S.C.
§§ 1541–1645). Congress specified that the Virgin
Islands would have a governor and the method of
electing the governor. 48 U.S.C. § 1591. It determined
that the territory would have a unicameral legislature,
proscribed the number of legislators, the length of their
terms, and how they would be elected. 48 U.S.C.
§§ 1571–1573. It also created a judicial system for the
Virgin Islands and authorized the Virgin Islands
Legislature to create a local court system. 48 U.S.C.
§ 1611. Congress’ control over governance of the
Territory went so far as to specify the location for the
capital of the Virgin Islands. 48 U.S.C. § 1541(b). And,
pertinent to this petition, Congress extended portions
of the Bill of Rights to the people of the Virgin Islands.
48 U.S.C. § 1561.

1

In 1976, Congress authorized the people of the Virgin Islands
to adopt a constitution and their own form of government. Pub.
L. No. 94–584, §§ 1–3, 90 Stat. 2899. The law requires any such
constitution to recognize the supremacy of, inter alia, the
Constitution and laws of the United States applicable to the
Virgin Islands, “including, . . . [the] Revised Organic Act of the
Virgin Islands.” Id., § 2(b)(1). Further, such a constitution must
include a bill of rights. Id., § 2(b)(3). The Territory has never
successfully adopted a constitution despite five separate
constitutional conventions. Hodge v. Bluebeard’s Castle, Inc., 62
V.I. 671, 682 n.4, 2015 WL 3634032 at *3 n.4 (2013).

3
This case comes before the Court because two of the
three justices of the Supreme Court of the Virgin
Islands departed from this Court’s interpretations of
the Bill of Rights and instead spun from whole cloth a
“Virgin Islands Bill of Rights” that is unmoored from
the U.S. Constitution and this Court’s interpretations
of it. This “Virgin Islands Bill of Rights” was used to
invalidate a law that limited non-economic damages in
motor vehicle accidents in the Virgin Islands.
2. The Virgin Islands Legislature struggles
to make affordable automobile liability
insurance available in the Territory. It
finally succeeds by imposing a cap upon
non-economic damage awards in
automobile accident cases.
The elected leaders of the Virgin Islands labored—
dating almost from when Congress first created the
Virgin Islands Legislature—to make insurance
available to people injured in motor vehicle accidents.
The first effort, enacted in 1959 by the territory’s Third
Legislature, required all drivers to have liability
insurance covering motor vehicle accidents.2 This
compulsory insurance law was repealed after only
seven months, most likely due to either the cost or the
scarcity of such insurance.3

2
3

1959 V.I. Sess. Laws 87 (Act No. 478, June 24, 1959).

1960 V.I. Sess. Laws 11 (Act No. 519, Jan. 22, 1960). There is
no available legislative history to explain why the law was
repealed by the same legislature only seven months later.

4
In 1975, the Eleventh Legislature undertook the
challenge and again enacted compulsory automobile
liability insurance.4 But within ten years—and with
residents confronted with “the extreme difficulty of
procuring insurance, its frightful cost and the small
percentage of drivers who maintain insurance,”5—the
Sixteenth Legislature responded to the electorate and
repealed compulsory insurance.6
The third time proved the charm when, in 1999, the
Twenty-third Legislature enacted compulsory automobile liability insurance.7 This time, the duly-elected
representatives of the people convinced insurance
companies to write insurance in the Territory at
affordable rates by including a limitation on the
recovery of non-economic damages in motor vehicle
cases that capped such damages at $75,000.8 The cap
did not apply in cases where a jury found the
defendant was grossly negligent or acted recklessly.
V.I. Code Ann. tit. 20, § 555. The cap applied to noneconomic damages only; there was no cap on economic
damages whether past, present or projected into the
future. The measure was so successful in establishing
4

1975 V.I. Sess. Laws 112 (Act No. 3724, July 31, 1975).

5

Maximin v. Rivera, 25 V.I. 20, 24, 1990 WL 533213, *3 (Terr.
Ct. 1990) (taking judicial notice of the conditions that led to the
second repeal of compulsory automobile insurance).
6

1985 V.I. Sess. Laws 155 (Act No. 5107, § 4, Nov. 2, 1985).

7

1999 V.I. Sess. Laws 49 (Act No. 6287, § 24 Aug. 17, 1999)
codified at V.I. Code Ann. tit. 20, §§ 701–713.
8

1999 V.I. Sess. Laws 58 (Act No. 6287, § 26 Aug. 17, 1999)
codified at V.I. Code Ann. tit. 20, § 555 (as amended).

5
a stable market for automobile insurance that the
Twenty-seventh Legislature felt comfortable raising
the non-economic damages cap to $100,000 in 2008. Id.
Senators in the Virgin Islands Legislature must
face the voters every two years. 48 U.S.C. § 1572(a).
Despite ten legislative elections since the cap was
enacted, the Legislature has amended the cap only one
time—to raise the non-economic damages cap to
$100,000. Evidently, the voters were satisfied that the
benefit of having insured-drivers on the Territory’s
streets more than offset the $100,000 limitation on a
potential pain and suffering award.
B. PROCEEDINGS IN THE SUPERIOR COURT OF THE
VIRGIN ISLANDS—THE CAP IS UPHELD.
On October 2, 2012, Frederic J. Balboni, Jr., a
tourist from Massachusetts, was walking on Veterans
Drive on St. Thomas, U.S. Virgin Islands, when he was
struck by an automobile owned by Ranger American of
the V.I., Inc. (“Ranger American”) and driven by its
employee, Emica King. Balboni filed suit in the
Superior Court of the Virgin Islands on July 29, 2014.
In his complaint, Balboni alleged King negligently
operated the automobile and Ranger American
negligently entrusted her with the vehicle. The
defendants denied the allegations and alleged that
Balboni was jaywalking when the accident occurred.
The merits of the case have yet to be adjudicated.
On January 23, 2017, Balboni filed a motion seeking a judicial determination that the cap on noneconomic damages in V.I. Code Ann. tit. 20, § 555 was
unconstitutional. Balboni asserted that the cap:

6
1) impermissibly invaded the province of the jury
in violation of the Seventh Amendment;
2) treated automobile accident victims differently
based upon the severity of their injuries in
violation of the Equal Protection Clause of the
Fourteenth Amendment;
3) treated automobile accident victims differently
than victims of non-motor vehicle accidents in
violation of the Equal Protection Clause of the
Fourteenth Amendment; and
4) infringed upon his Due Process rights under the
Fifth and Fourteenth Amendments.
Petitioners opposed the motion. The Government of
the Virgin Islands intervened and also opposed it.9
On January 24, 2018, the Superior Court upheld
the statute. App. 142a. On February 21, 2018, it
certified the constitutional issues for interlocutory
review by the Supreme Court of the Virgin Islands. On
March 9, 2018, that court granted leave to file the
interlocutory appeal.
C. THE

VIRGIN ISLANDS SUPREME COURT
DEPARTS FROM THIS C OURT ’ S EQUAL
PROTECTION JURISPRUDENCE TO STRIKE DOWN
THE NON-ECONOMIC DAMAGES CAP.

On June 3, 2019, a divided Supreme Court of the
Virgin Islands held that the cap on damages violated
9

The Government of the Virgin Islands intervened as of right
to defend the constitutionality of the statute as authorized by V.I.
Rule Civ. Proc. 5.1(c). Because the government was a party below,
28 U.S.C. § 2403(b) does not apply.

7
48 U.S.C. § 1561—the Equal Protection Clause made
applicable to the Virgin Islands by the Revised Organic
Act. App. 1a. The court reached this conclusion only
after holding that Congress intended to treat the
Revised Organic Act as a “local” constitution akin to a
state constitution, with the Virgin Islands Supreme
Court having the authority to interpret its provisions
in the same manner that a state’s highest court may
interpret a state constitution. In other words, if the
federal statute extending the Equal Protection Clause,
U.S. Const. Amend. XIV, § 1, to the Territory is deemed
to be a “state” constitution, then the Virgin Islands
Supreme Court considers itself able to apply the clause
differently than this Court does.
The critical flaw in the majority’s reasoning lies in
its departure from the express language of the Revised
Organic Act in favor of scant legislative history. That
departure is directly contrary to this Court’s directive
that when Congress extends “the familiar language of
the Bill of Rights, slightly changed in form, but not in
substance,” it intends that the language be interpreted
in accordance with federal law. Kepner v. United
States, 195 U.S. 100, 123 (1904).10
An analysis of the language Congress crafted to
extend the Equal Protection Clause to the Virgin
Islands demonstrates that Congress did not merely use
“familiar language.” Rather, the statute directly
10

It is also a departure from this Court’s oft-stated general rule
of statutory construction that if a statute is unambiguous and the
statutory scheme is coherent and consistent, the inquiry ceases.
Kingdomware Technologies., Inc. v. United States, __ U.S. __, 136
S. Ct. 1969, 1976 (2016).

8
incorporated the Equal Protection Clause of the
Fourteenth Amendment and affirmatively stated that
it was to “have the same force and effect” in the Virgin
Islands “as in the United States or in any State of the
United States.” 48 U.S.C. § 1561.11 With the statute
itself articulating Congress’ intent, it was wrong to rely
upon any legislative history—in particular the sparse
legislative history relied upon by the Virgin Islands
Supreme Court—to conclude that Congress intended to
allow the Supreme Court of the Virgin Islands to apply
a different interpretation of the Equal Protection
Clause than that applied by this Court.
When the two justices in the majority created the
artifice of a “Virgin Islands Bill of Rights” and deemed
it to be the equivalent of a state constitution, they
enabled themselves to reject this Court’s Equal
Protection Clause precedent. Had they followed this
Court’s precedent, they would have reviewed the
11

The Revised Organic Act contains two clauses relating to
equal protection. The opening sentence of 48 U.S.C. § 1561 states:
No law shall be enacted in the Virgin Islands which shall
deprive any person of life, liberty, or property without due
process of law or deny to any person therein equal protection
of the laws.
The final paragraph of Section 1561 provides, in pertinent part:
The following provisions of and amendments to the
Constitution of the United States are hereby extended to the
Virgin Islands to the extent that they have not been
previously extended to that territory and shall have the same
force and effect there as in the United States or in any State of
the United States: . . . the second sentence of section 1 of the
fourteenth amendment; . . .
(Emphasis added.)

9
damages cap under the lowest level of Equal Protection
Clause scrutiny: rational basis scrutiny. Instead, the
majority substituted “heightened rational basis”
review, just as the highest courts of some states do
when applying the Equal Protection Clause of their
own state’s constitution. As the Virgin Islands
Supreme Court explained, this “heightened rational
basis” review “requires a court to analyze the actual
justification for the statute, rather than engage in
speculation by considering any and all possible reasons
for its enactment.” App. 70a. The two-justice majority
applied this heightened scrutiny to strike down the cap.
Dissenting Justice Maria Cabret was unsparing in
her criticism of the majority’s reasoning:
First, it is most telling that the majority, in
its lengthy, circuitous opinion, does not
reference a single decision in which a
territorial high court—or federal court
sitting as high court of a territory—
interpreted a right conferred by Congress in
an organic act to be more protective than its
analog in the U.S. Constitution. Indeed,
every federal appellate court to consider the
issue, including the Supreme Court of the
United States, has reached the opposite
conclusion: that when Congress uses wellknown constitutional language in the bill of
rights of a territorial organic act, it intends
that the protection afforded by that right be
coextensive with the protection afforded by
its analog in the U.S. Constitution.
App. 97a–98a [footnote omitted].

10
In the end, the majority opinion is built upon
a misguided interpretation of an incomplete
picture of the legislative history surrounding
section 3 of the Revised Organic Act.
Moreover, the majority wholly ignores the
binding precedent of the Supreme Court of
the United States in Kemper [sic], the highly
persuasive decisions of the federal circuit
courts of appeal in cases like Guerrero, and
this Court’s own decision in Ward. These
cases, considered in the context of the full
body of relevant legislative history, lead
inexorably to the conclusion that Congress
intended for the due process and equal
protection clauses of section 3 of the Revised
Organic Act to confer rights coextensive with
those enshrined in the corresponding provisions of the Fourteenth Amendment; and
that this Court may not interpret these
provisions in any manner other than that
provided by the Supreme Court of the United
States.
App. 117a–118a.
The dissent was correct. The decision is contrary to
this Court’s precedent and that of three circuits.

11
REASONS FOR GRANTING THE PETITION
A. The decision below conflicts with three
relevant decisions of this Court on an
important question of federal law.
The federal Bill of Rights protects citizens from
governmental overreach. If territorial governments
were free to modify the portion of the federal Bill of
Rights that Congress extends to the citizens of the
territories, those rights could easily become illusory.
Thus, Congress does not bestow upon the governments
of the territories the power to modify those rights,
whether through legislation or executive action or, as
in this case, through judicial interpretation.12
In Kepner, 195 U.S. 100 (1904), this Court observed
the basic principle that when Congress extends to a
territory “the familiar language of the Bill of Rights,
slightly changed in form, but not in substance,” it
intends that the language be interpreted in accordance
with the understanding of that familiar language. Id.
at 123. At issue in Kepner was the proper
interpretation of the Double Jeopardy Clause, which
Congress had extended to the Philippine Islands.
12

Typically, Congress does authorize each territory to engage in
a process that could lead to a territorial constitution. See, e.g.,
Pub. L. No. 94–584, §§ 1–3, 90 Stat. 2899 (authorizing the Virgin
Islands to convene a constitutional convention). But, the results
of such an effort are not self-enacting and Congress must approve
any proposed territorial constitution. Id., § 5. Ironically, the
Territory’s last effort to adopt a constitution failed because the
proposed constitution was “inconsistent with the Constitution and
Federal law.” See Pub. L. No. 111–194, 124 Stat. 1309. Congress
encouraged the convention to reconvene and correct the issues,
id.; but, the convention never reconvened.

12
The prosecution in Kepner argued that when
Congress applied the Bill of Rights to the Philippine
Islands, it intended to “make effectual the
jurisprudence of the islands as known and established
before American occupation.” 195 U.S. at 120. Before
the United States assumed dominion over the
Philippine Islands, Spanish law applied. Under the
Spanish version of double jeopardy, unlike the United
States’ version, jeopardy did not attach until there was
a final judgment “in the court of last resort.” Kepner,
195 U.S. at 121.13
This Court granted certiorari to decide whether
Congress intended to apply the Spanish or American
understanding of when jeopardy attached when it
extended the Bill of Rights to the Territory. The Court
explained that “we must look to the origin and source
of the expression, and the judicial construction put
upon it before the enactment in question was passed.”
195 U.S. at 121. As the Court noted, the language
ultimately used by Congress to apply the Double
Jeopardy Clause to the Philippine Islands was “not
strange to the American lawyer or student of
constitutional history” even though the “familiar
language” from the Bill of Rights was “slightly changed
in form, but not in substance.” 195 U.S. at 123. The
Court then rhetorically asked,
How can it be successfully maintained that
these expressions of fundamental rights, which
13

Kepner was acquitted in the Philippine Islands trial court.
The United States appealed to the Supreme Court of the
Philippine Islands, which reversed, found Kepner guilty, and
imposed sentence. 195 U.S. at 110.

13
have been the subject of frequent adjudication
in the courts of this country, and the
maintenance of which has been ever deemed
essential to our government, could be used by
Congress in any other sense than that which
has been placed upon them in construing the
instrument from which they were taken?
Kepner, 195 U.S. at 124. Answering this question, the
Court stated, “It is a well-settled rule of construction
that language used in a statute which has a settled
and well-known meaning, sanctioned by judicial
decision, is presumed to be used in that sense by the
legislative body.” Id. This Court concluded that the
federal statute applying the Constitution’s Double
Jeopardy Clause must be interpreted by reference to
the federal Bill of Rights.
This Court reaffirmed the same principle twice
after Kepner. In Serra v. Mortiga, 204 U.S. 470, 474
(1907), the Court considered it “settled” that the
Congressional extension of the Bill of Rights to the
Philippine Islands was to be interpreted in accordance
with the Constitution’s Bill of Rights. Likewise, in
Weems v. United States, 217 U.S. 349 (1910), the Court
held that when Congress prohibited the infliction of
cruel and unusual punishment in the Philippine
Islands, the language it used to do so “was taken from
the Constitution of the United States, and must have
the same meaning.” Id. at 367.
Had the majority in the decision below adhered to
the holdings in Kepner, Weems, and Serra, it would
have applied this Court’s rational basis review to the

14
non-economic damages cap and upheld the statute.14
Instead, it relegated Kepner and Weems15 to a footnote
(App. 49a, n.25) and distinguished them by citing
Boumediene v. Bush, 553 U.S. 723, 757 (2008), which

14

In Davis v. Omitowoju, 883 F.2d 1155 (3d Cir. 1989), the
Third Circuit rejected an Equal Protection challenge to a Virgin
Islands cap on medical malpractice damages because the cap was
a rational way “to curb, through legislation, the high costs of
malpractice insurance and thereby promote quality medical care”
in the Territory. 883 F.2d at 1158. As Lloyd’s America, Inc. noted
in an amicus brief filed in the Virgin Islands Supreme Court
proceeding, every federal court that has considered whether a cap
on damages passes muster under rational basis scrutiny under
the Equal Protection Clause has upheld the cap. See, e.g., Estate
of McCall v. United States, 642 F.3d 944, 951 (11th Cir. 2011)
(Florida law limiting non-economic damages in medical
malpractice cases did not violate Equal Protection Clause because
the cap was rationally related to the legitimate goal of reducing
medical malpractice premiums and the cost of medical care);
Smith v. Botsford Gen. Hosp., 419 F.3d 513, 519–20 (6th Cir.
2005), cert. denied, 547 U.S. 1111 (2006) (holding Michigan’s
statutory cap on medical malpractice damages did not violate the
Equal Protection Clause); Patton v. TIC United Corp., 77 F.3d
1235, 1247 (10th Cir.), cert. denied, 518 U.S. 1005 (1996) (Kansas
cap of $250,000 for non-economic damages did not violate Equal
Protection Clause because it furthered a legitimate interest in
stabilizing insurance rates); Lucas v. United States, 807 F.2d 414
(5th Cir. 1986) (Texas statute limiting non-medical damages did
not violate Equal Protection Clause of the United States
Constitution); Hoffman v. United States, 767 F.2d 1431, 1437 (9th
Cir. 1985) (upholding California cap on non-economic recovery
under Equal Protection Clause challenge because it was rational
for lawmakers to believe that a damages cap would help reduce
malpractice insurance premiums).
15

The majority did not mention the Serra decision.

15
dealt with an unrelated issue.16 The majority seized
upon Boumediene’s description of the history of the
Philippine Islands as a territory that was acquired by
the United States in war with no intention of retaining
sovereignty over it once a stable government was in
place. By way of contrast, the Court observed that “the
Constitution applies in full in incorporated Territories
surely destined for statehood but only in part in
unincorporated Territories.” 553 U.S. at 757.
Engaging in a non sequitur fallacy, the Virgin
Islands Supreme Court majority distinguished Kepner
on the grounds that Congress had intended to grant
independence to the Philippine Islands whereas it
intended to retain sovereignty over the Virgin Islands.
App. 49a, n.25. But, Congress’ intent to retain a
territory was not germane to Kepner’s holding that
when Congress uses the familiar language of the Bill
of Rights, it is presumed that it intends to apply the
settled and well-known meaning of the Bill of Rights.
Kepner, 195 U.S. at 124. The majority deployed this
distinction-without-a-difference to provide window
dressing for its refusal to follow Kepner.
16

Boumediene was initiated as a habeas corpus petition brought
by detainees at the naval base at Guantanamo Bay, Cuba. The
issue was whether the Suspension Clause of the Constitution
prohibited the suspension of the writ of habeas corpus for
detainees held on soil where the United States was not the
sovereign. This Court held that the Suspension Clause was a
fundamental Constitutional right that applied to the Guantanomo
Bay detainees ex proprio vigore. Boumediene has no application
to the present controversy because there was no federal law
making the Suspension Clause applicable and no question as to
how to interpret a provision of the constitution that applies
beyond the fifty United States as a result of an Act of Congress.

16
Kepner, Weems, and Serra each teach that the
Virgin Islands Supreme Court must interpret the
Equal Protection Clause that Congress applied to the
Territory in the Revised Organic Act in accordance
with federal law and may not create a new body of
jurisprudence based upon its own view of how the
Equal Protection Clause should apply. The Virgin
Islands Supreme Court’s failure to follow this Court’s
precedent requires correction. The petition for
certiorari should be granted because only this Court
can make that correction.
B. The decision below conflicts with three
U.S. courts of appeal on an important
question of federal law.
Almost twenty years ago, the Guam Supreme Court
tried a similar end run around its Organic Act—in the
context of First Amendment rights extended to Guam
by Congress. Like the Virgin Islands Supreme Court,
the Guam court sought to expand a constitutional right
beyond the limits required by the U.S. Constitution.
Like the Virgin Islands Supreme Court, the Guam
court expressed the view that “this court sits as the
highest tribunal in this jurisdiction and that Congress
intends to allow Guam to develop its own institutions.”
And, like the Virgin Islands Supreme Court, the Guam
court opined that “[d]espite the similarity” between a
clause in the Bill of Rights and the corresponding
extension of that clause to Guam via its Organic Act,
“this court can reach its own conclusions on the scope
of protections” provided by the Organic Act “and may
provide broader rights than those which have been
interpreted by federal courts under the United States

17
Constitution.” People v. Guerrero, 2000 Guam 26, ¶22,
2000 WL 1299635 at *6 (2000), rev’d, Guam v.
Guerrero, 290 F.3d 1210 (9th Cir. 2002).
The Ninth Circuit granted certiorari17 and rejected
the exact same arguments subsequently endorsed by
the Virgin Islands Supreme Court in this case. Id. It
observed that while Guam’s Organic Act “might
function as a constitution,” it nevertheless was a
federal statute and “remains quite unlike a
constitution of a sovereign state.” Guerrero, 290 F.3d at
1216–17. It further noted that “[n]ot even a sovereign
state may interpret a federal statute or constitutional
provision in a way contrary to the interpretation given
it by the U.S. Supreme Court.” Id. at 1217.
Unlike the Virgin Islands Supreme Court, the
Ninth Circuit recognized that this Court’s decisions in
Kepner and Weems governed the resolution of the
issue. The decision below is in irreconcilable conflict
with the Ninth Circuit in Guerrero.
The Virgin Islands decision also directly conflicts
with two other circuits. See United States v. Husband
R., 453 F.2d 1054, 1058 (5th Cir. 1971), cert. denied,
406 U.S. 935 (1972) (citing Kepner and holding that the
“statutory ‘bill of rights’ enacted by Congress for the
Canal Zone” was to be “given the same construction” as
given to “equivalent provisions of the Constitution”)
and South Porto Rico Sugar Co. v. Buscaglia, 154 F.2d
17

Until a 2004 amendment, 48 U.S.C. § 1424-2 provided that the
Ninth Circuit would have certiorari jurisdiction for the first
fifteen years following the Guam legislature’s establishment of a
local appellate court. Pub. L. No. 98–45, § 22B, 98 Stat. 1732)
(codified as amended 48 U.S.C. § 1424-2).

18
96, 100 (1st Cir. 1946) (holding that “[w]hen Congress
by the Organic Act enacted for Puerto Rico provisions
similar to those contained in our ‘Bill of Rights’ it
intended them to have the same purport as the like
provisions of our Constitution”). The Virgin Islands
Supreme Court did not cite, let alone distinguish,
either case.
C. The Question Presented raises an
important question of federal law and has
great importance to the Territory.
Although the Virgin Islands Supreme Court, like
the Guam Supreme Court in Guerrero, 2000 Guam 26,
wished to freely interpret the Organic Act in the same
manner that a state’s highest court might interpret a
state constitution, there is one critical difference
between a territorial court interpreting an organic act
and a state court interpreting its state constitution: All
state constitutions are subject to a process by which
the people of the state can amend their constitution
directly or indirectly at the ballot box (whether that be
by initiative, constitutional convention, or action of a
state legislature18 ). If the highest court of a state
strikes down a state statute as contrary to a state
constitution, the people of that state have the right and
capability to overrule their highest court if they
disagree with it.
The same is not true in the Virgin Islands. The
Territory’s citizens have no right—direct or indirect—
18

See generally Amending State Constitutions, Ballotpedia,
h ttp s: / / ballo tp e d ia. o r g / Ame n d i n g _ s t ate _ c o n stitu tio n s
(summarizing each state’s constitutional amendment process)
(last visited Aug. 30, 2019) .

19
to amend the Revised Organic Act. Thus, when the two
unelected justices of the Virgin Islands Supreme Court
held that V.I. Code Ann. tit. 20, § 555 violated the
“Virgin Islands Bill of Rights,” the people of the
Territory were left powerless to correct the court.
The lack of an electoral “remedy” to correct the
unelected two-justice majority takes on particular
importance given that the majority struck down a law
enacted by the duly-elected Virgin Islands Legislature
twenty years previously. There was enough
satisfaction with this law that ten successive
legislatures were voted into office without repealing
the damages cap. The people of the Virgin Islands are
left with no recourse or capability to amend this
ephemeral “Virgin Islands Bill of Rights” that exists
solely by the dictate of the two-justice majority of the
Virgin Islands Supreme Court. There is no process by
which the people or Legislature of the Virgin Islands
may enact a change to reflect the will of the people.19
The decision of the Supreme Court of the Virgin
Islands also has unsettled what had been a settled
area of federal law. There is a risk that other
territorial courts will follow the Virgin Islands down
this wayward path. For example, recent jurisprudence
from the Supreme Court of Guam raises the specter
that it will interpret portions of the Guam Organic Act
19

The sole recourse available is to persuade Congress to amend
the Revised Organic Act. But the people of the Virgin Islands
have no vote in the Senate, and their Delegate to the House of
Representatives cannot vote on legislation. Pub. L. No. 92-271, 86
Stat. 118. Thus, their power to cause an amendment to the
Revised Organic Act is limited to moral suasion to convince a
majority of the House and the Senate to act.

20
independently from the Constitution. See People v.
Moses, 2016 Guam 17, ¶21, 2016 WL 1735783 at *5
(2016) (suggesting the “possibility that we could
interpret the Organic Act to be more protective” than
the U.S. Constitution). It is important that this Court
act to resolve the split and restore certainty relating to
the power of territorial courts to interpret federal law
differently than this Court.
The decision below is also of great importance to the
Virgin Islands. As the Government of the Virgin
Islands explained in its brief to the Supreme Court of
the Virgin Islands in support of the constitutionality of
the damages cap, Guardian Insurance Company and
Lloyd’s America, Inc., two of the largest writers of
automobile insurance in the Territory, stated that if
the cap were struck down, they would reconsider their
decisions to write such insurance and if they continued
to write it, would be forced to increase their premiums
significantly. The decision below leaves the Legislature
without the one tool that finally succeeded in bringing
affordable automobile liability insurance to the
Territory and, as indicated above, without a remedy for
either the Legislature or the voters to correct the
Virgin Islands Supreme Court.
The decision also has a profound impact upon
insurers and drivers alike. With a two-year statute of
limitations for personal injury negligence cases,20 and
lawsuits in the Virgin Islands courts taking an average

20

V.I. Code Ann. tit. 5, § 31(5)(A). Balboni filed suit with only 65
days left before the two-year statute of limitations ran.

21
of ten years for adjudication,21 the elimination of the
damages cap retroactively affects civil cases involving
traffic accidents that happened in the past twelve (or
more) years. The impact upon insurance companies
and drivers sued for negligence is substantial.
Decisions by insurers as to the premium to charge, and
by automobile owners regarding how much insurance
to purchase, were made in the past two decades based
upon reasonable expectations—rooted in this Court’s
century-old precedent in Kepner. Those decisions are
now retroactively undermined. Although insurers and
drivers cannot turn back the clock to revisit those
decisions, this Court can correct the Virgin Islands
Supreme Court’s error.
D. This case provides an ideal vehicle for the
Court to clarify the standard of review that
applies to decisions of territorial courts
that interpret federal law.
Congress has directed that the relationship between
this Court and the Supreme Court of the Virgin
Islands shall be the same as the relationship between
this Court and “the courts of the several states.” 48
U.S.C. § 1613. This Court defers to the interpretation
that a state’s highest court gives a state statute.
Memorial Hosp. v. Maricopa County, 415 U.S. 250, 256
(1974). On the other hand, “when a state court reviews
state legislation challenged as violative of the
Fourteenth Amendment, it is not free to impose greater
restrictions as a matter of federal constitutional law
than this Court has imposed.” Minnesota v. Clover Leaf
21

Vooys v. Bentley, 901 F.3d 172, 193 (3d Cir. 2018), cert.
denied, __ U.S. __, 139 S. Ct. 1600.

22
Creamery Co., 449 U.S. 456, 461 (1981) citing Oregon v.
Hass, 420 U.S. 714, 719 (1975).
The majority in the case below sought to blend
these two rules and carve out a different rule when a
federal statute applies the Constitution to a territory.
The dissent below accurately described the majority’s
position:
The majority attempts to distill from these cases
a general rule: that when Congress enacts
legislation “in its capacity as a national
legislature, both federal and territorial courts
are bound to fully and without qualification
effectuate the intent of Congress,” but when
Congress steps into the role of the territorial
legislature and enacts legislation specifically
directed at a particular territory, “the Congressional enactment is to be treated as a
territorial law, with a territorial court of last
resort authorized to interpret it pursuant to the
same principles and authority governing
interpretation of state laws by a state court of
last resort.”
App. 115a (quoting from the majority opinion) (footnote
omitted).
As the dissent also noted (App. 113a), the majority
devoted fifteen pages of its opinion to an effort to build
the narrative that the Revised Organic Act—federal
law—is to be treated as local law that is to be
interpreted by the Virgin Islands Supreme Court with
this Court deferring to such an interpretation. This
case presents an opportunity for this Court to fully

23
implement the mandate of 48 U.S.C. § 1613 and clarify
that when the Supreme Court of the Virgin Islands
interprets a statute adopted by the Virgin Islands
Legislature, such interpretation is entitled to
deference; but, correspondingly, just like state courts,
territorial courts receive no deference when
interpreting a federal statute and must conform to this
Court’s decisions.
CONCLUSION
For the foregoing reasons, this Court should grant
the petition and issue a writ of certiorari to the
Supreme Court of the Virgin Islands.
Respectfully submitted,
Andrew C. Simpson
Counsel of Record
Andrew C. Simpson, P.C.
2191 Church St., Ste. 5
Christiansted, St. Croix
U.S. Virgin Islands 00820
340.719.3900
asimpson@coralbrief.com
www.coralbrief.com

